HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility
of Chisholm Administrative Services,"(A-05-04-00057)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Chisholm
Administrative Services," (A-05-04-00057)
June 28, 2004
Complete
Text of Report is available in PDF format (281 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to
determine the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments, attributable to Chisholm Administrative
Services (Chisholm), contained in a database of payments made under the administrative responsibility of nine Medicare
Fiscal Intermediaries (FI’s).  Our review of the database estimated that $383,456 of ineligible SNF payments
were made under the administrative responsibility of Chisholm during calendar years 1997 through 2001.  The overpayments
occurred due to the absence of an automated cross-check, within the Centers for Medicare and Medicaid Services (CMS)
Common Working File and the FI's claims processing systems, verifying that a three consecutive day inpatient hospital
stay occurred prior to SNF admission.  Chisholm will not initiate recovery actions on the ineligible payments within
our database due to a CMS memorandum instructing all FIs not to initiate any recovery actions.